                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: I07080029                                                           11          Page 1 of 1



               We initiated an investigation after receiving an allegation that Michelle Harris, had falsely
       charged personal expenses to an NSF Grant to the Georgia Institute of Technology.                 Our
       investigation substantiated that Ms. Harris made personal purchases using a Georgia Institute of
       Technology issued Purchase Card and then charged those personal expenses to various university
       accounts, including the NSF Grant. We referred this matter to the US Attorney's Office in Atlanta
       and to the Georgia Attorney General's Office, who had Geen previously notified of this matter by         -
       State Officials. It was decided that the Georgia Attorney ~ e n e r d l ' sOffice would prosecute this       .
     , matter and on+March21, 2008, Ms. Hams was indicted in the superior Court of ,!Fulton County;

 . - Atlanta Judicial Circuit, State of Georgia, for Theft by taking in violation of 0.G.G.A:-tj 16-8-2 and     . ->:
       constituting racketeering activity pursuant to O.C.G.A. tj 16-14-3.(9) (A) (ix), and Making false
       statements and writings in violation of O.C.G.A. tj 16-10-20 and constituting racketeering activity
       pursuant to O.C.G.A. tj 16-14-3 (9) (A) (xv).                                  ,-  ,


                On March 16,2009, Ms. Harris entered a plea of Guilty to one count of racketeering and was
         sentenced by the court to 20 years, 10 years to be served in prison and the remaining 10 years on
         probation. On June 08,2009, Ms. Harris agreed to pay $125,000 in restitution. (See Attachment)

                   Accordingly, this case is closed.




VSF OIG Form 2 (I 1/02)
               IN THE SUPERIOR COURT OF FULTON COUNTY
                       ATLANTA JUDICIAL 'CIRCUIT
                           STATE OF GEORGIA


THE -STATEOF GEORGIA                 INDICTMENT No.

                                     NdarchlApril2008 Term of Court
                         -
:MICHELLEHARRIS,                     Racketeeriqg,.
 A/WA..MICHELLE IPUNBA.              0;C.G.A. 16-14-4(c).   .




Witness for the State:                           Sill

Phil W. Hurd




                             THURBERT E.BAKER
                             ATTORNEY GENERAL
            I N THE SUPERIOR COURT OF FULTON COUNTY
                        STATE OF-'GEORGIA




in the name and behalf of yhe citizens of Georgia, charge
and accuse MICHELLE HARRIS A/K/A MICHELLE DUNBAR with the
offense of RACKETEERING in violation of 0 . C . d . ~ . S 16-14-
4(c) in that the said accused, in tkie State of Georgia and
County of Fulton, on and between June 6, 2003, and May 4,
2007, did then and there endeavor to violate O . C . G . A . B 16-
14-4(a) contrary to the laws of said state, the good order,
peace, and dignity thereof as follows:

                 Part 1   -   Statement of O f f e n s e   '




MICHELLE HARRIS A/K/A     KICHELLE DUNBAR, employed by and
associated with the Georgia Institute of Technology
(hereinafter referred to as "Ge0jrgi.aTech") , endeavored to
acquire and maintain, directly and indirectly, an interest
in and control of personal property through a pattern of
racketeering activity.

Said racketeering activity included:

     Theft by taking in violation of O . C . G . A . . § 16-8-2 and
     constituting racketeering act ivi.typursuant to
                                         .
     0 . C . G . A...... 5 16-14-3 (9) (A)(ix)


                                                 BOOK          PAGE
     Making false statements and writings in violation of
     O.C.G.A. 5 16-10-20 and constituting racketeering
     activity pursuant to O.C.G.A. § 16-14-3 (9) (A) (xv)                .
     Wire fraud in violation of 18 U.S.C. § 1343 and
     constituting racketeering activity pursuant to
     O.C.G.A. 5 16-14-3 (9)(A)(xxix).

     Mail fraud in violation of 18 U.S.C. § 1341 and
     constituting racketeering activity pursuant to
     O.C.G.A. § 16-14-3 (9)(A)(xxix).

Georgia Tech issued the accused a state purchasing card
("Georgia Tech P-Card") for which the accused was
authorized to make specified purchases. Said card was a
Visa credit card, issued by Bank of America, bearing number
xxxx xxxx xxxx 83 10.

The accused used the P-Card to make purchases of ,
merchandise, gift cards, and other items of value for her
own personal use or the personal use of third-parties.

To conceal her purchases, the accused manipulated data in
the Georgia Tech computer accounting system, know as
       " to allocate the purchases among multiple accounts
\\Works,
maintained by G/eorgia Tech for various purposes.

These accounts included accounts for National Science
Foundation grant money, Kaufman Foundation money, and
Georgia Tech Foundation accounts.

To further conceal her purchases, the accused created
fraudulent receipts or hid the itemized purchases on real
receipts, which were submitted to Georgia Tech to justify
the purchases.

In furtherance of the accused's endeavor, tnultiple acts
were performed by the accused (hereinafter referred to as
the "acts").

At least one of the accused's acts occurred in F'ulton
County, Georgia.



                             ..         .
                                        >..

                  *.
                   .^"




                                                              ~   0   0pAGE
                                                                          ~
                                              Page 3 of 16
           _
      ,.....   ._...I__._..r..l..~--~                        0002b5    b22    I
                  Part 2     --   Acts in Furtherance of Her Endeavor

    O n and between J u n e 6 , 2 0 0 3 , and M a y 4 , 2 0 0 7 , t h e accused
    u s e d h e r Georgia ~ e c hP-Card t o make t h e f o l l o w i n g
    p u r c h a s e s , each p u r c h a s e b e i n g a s e p a r a t e a c t i n
    f u r t h e r a n c e of h e r endeavor :


     Date              Purchase ~ e s c r i ~ t i o n                                                                                Amount
                       UMCP BURSAR NET PO1 OF 01 (tuition & other expenses for Darien
     6/6/2003          Green)                                                                                                        $2,400.00
                       UMCP BURSAR NET PO1 OF 01 (tuition & other expenses for Darien
    611 112003         Green)                                                                                                  I    $1,600.00
    611312003        I MARYLAND BK EXCHNGE 70                                                                                       $133.06
    611312003          RADIO SHACK 00124768                                                                                         $104.99-
    611912003          UMCP CASHIER                                                                                                 -$62 1.45
    7/28/2003          SAMS        WAX                                                                                              $20.00
    7/28/2003          SAMS        WAX                                                                                              $510:41
    812 112003         SAMS        WAX                                                                                              $150.00
    9/9/2003           SAMS        WAX                                                                                              $100.00
    9/9/2003           UMUC Tun-lOlV #3                                                                                             $30.00
    9/30/2003          SAMS        WAX                                                                                              $25.00
    9/30/2003          SAMS        WAX                                                                                              $9.1 2
    9/30/2003          SAMS        WAX                                                                                              -
                                                                                                                                    $150.00-
    1011312003         MBS DIRECT TEXTBOOKS                                                                                         $244.72
    1011412003         SAMS        WAX
    10/28/2003         SAMS        WAX
    1013 112003        SAMS        WAX
    1111812003
    1111912003                                                                                                                       $1,300.00
    1112112003                      Wz!p                                                                                           - - $2,300.00
                         AT&T WIRELESS SERVICES                                            ---




   12/31/2003        1   SAMS       'WAX                                                                                             $800.00
   12/31/2003
-----                I               WAX                  1---..---.-.-.--
1  1/6/2004          /   SAMS
                          -.--       WAX                                     ------.--                                             I-..$1,600.00
                                                                                                                                       -.---     J
                         SAMS        WAX
                                                     -~                                          -           --..---.-.-            ----
                                                                                                                                     $2,000.00
                                     WAX                                                             -   ,                 -.---     $800.00
                                    wA&             :-                          -.-              --                                 --$,I
                                                                                                                                      -,800.00
                                                                                                                                          --
                                    WAX            -.--                                                              ---             $'1,460.56
    1' /27/2004                     WAX                                                                                              $1,000.00
    1/27/2004 --                    WAX    .   .                   .
                                                                                           --                                        $ I ,500.00
    2/3/2004             SA IMS     WAX                                         -.-.--..                                             $1,250.00-
    211012004                                      -lL"-                                                 -----                       $1 ,000.00
                                                                                                                                     $1,900.00
                                                                                         W~JK---*~ fir                                   ---
  Date                      Purchase Description                                                                Amount
                                                                                L
  211712004                 SAMS        WAX                                                                    $2,000.00
  211712304                 SAMS        WAX                                                                    $500.00
  2/27/2004                 SAMS        WAX                                                                    $2,000.00
  3/9/2004                  SAMS        WAX                                                                    $2,000.00
  3/9/2004                  SAMS        WAX                                                                    $2,000.00
  311612004                 SAMS        WAX      -                                                             $2,000.00
  3/25/2004                 SAMS        WAX                                                                    $2,000.00
  3/30/2004                 SAMS        WAX                                                                    $2,000.00
- 4/9/2004                  SAMS        WAX                                                                    $1,500.00
  411512004                 PUBLlX #725     SA1                                                                $76.99
  411512004                 SAMS        WAX                                                                    $2,000.00
  4/20/2004                 SAMS        WAX                                                                    $1,000.00
  4/27/2004                 PUBLIX #725     SAI                                                                $106.53
  4/27/2004                 SAMS        WAX                                                                    $2,000.00
  5/4/2004                  SAMS        WAX                                                                    $2,000.00
  511 112004                SAMS        WAX                                                                    $2,000.00
  511712004                 STUDENT ACCOUNTS 01 OF 01                                                          $1,841,50
  511812004                 SAMS        WAX                                                                    $2,000.00
  5/24/2004                 SAMS        WAX                                                                    $2,000.00

 6/8/2004                   SAMS        WAX                                                                      $1,500.00
 6/8/2004                   SAMS        WAX                                                                      $2,000.00
-6/29/2004                  GSU BOOKSTORE FOLLET #057 -                                                          $101.58
 7/20/2004                  BARNES & NOBLE.COM                                                                   $47.73
 7/20/2004                  SAMS        WAX                                                                      $35.00     .
 7/20/2004                  SAMS        WAX                                                                      $2,000.00
 7/23/2004                  STUDENT ACCOUNTS   ----01 OF 01                                                      $1,944.00
 7/26/2004                  SAMS        WAX                                                                      $2,000.00
 7/27/2004                  SAMS        WAX--                                                                 .- $1,500.00 -
 8/5/2004                   PUBI_IX#725'     SAL-,
 811 112004                 SAMS        WAX
                            AMERICAN TRANSMISSION INC (transmission work on 1994 Nissan
811312004
-   -                       Altima        .        --                                                          $2,126.00-
 811612004                            -.WAX              --          ..--
 8/23/2004                                 --------.-
 8/26/2004                 UMCP BURSAR NET PO1 OF 01- (k~itionfor D-arien Green)                  ,
                           PUBLIX #725    SA1      _--               ---
-..-                     - AT&T WIRELESS SERVICES                             -
                           GSU BOOKSTORE FOLLET ffO57 .
                           CCU-STATE   -
                                   -- OF MD
                                          --TEL-WE13
                                             -         ,

                            CCU-STATE OF!!!._D_EI.-WEB                          pa-
                                                                                  -
                                                                                  -




                                          . S A I i-,,           .-                   :   ----                 $176.22              .       .

 10/4/2004                  UMUC TUITION #6      -----.--------.
                                                  ..
                                                                                                 ---------.    $20.00
 10/8/2004                  PUBLIX #725                                                   '.      .--          $82.68 -
 1011812004                 PUBI-IX #725'   SA1                                                                $173.65
                                            SE!?VICES                                                          $172-.74-'
                                                                      -   "-QQX--~~LGF-.                        $60,24---       .       ,




                                                                                                                  :.

                                           .      .
                                                        Page 5 o f 1 6    0002b5          b2.b
 '.--_ .---.-..   "4"'
                                                                                                                                 ?

                                        4 "




    Date               Purchase ~escription                                                                         Amount
    12/3/2004          AT&T WIRELESS SERVICES                                                                    $128.84
    12/3/2004          PUBLIX #725        SA1                                                                    $262.10
    12/6/2004          STUDENT ACCOUNTS 01 OF 01                                                                 $2,077.00
    12114/2004         WAL-MART STORES, INC (personal items including candy)                                     $83.33
    12120/2004         GEORGIA-TECH-BKSTORE#2250                                                                 $131.85
    12/20/2004         SAMS INTERNET (Destiny's Child CD)                                                        $22.49
    12/20/2004         SAMS INTERNET ("Spider-Man 2" DVD)                            fi                          $30.1 1
    12/2012004         SAMS INTERNET (parfume)                                                                    $45.04        .
    12/20/2004         SAMS INTERNET (leap frog LeapPad plus writing combo)                                      $59.61
    12/20/2004         SAMS INTERNET (parfume)                  -               -<                               $155.20
    12/20/2004         SAMS INTERNET (2 pair diamond charm earrings)                                              $1,449.12
    12/2012004         AT&T WIRELESS SERVICES                                         i                           $101.35
                                                                                      t
    1212 112004        BARNES & NOBLE.COM (gift card)                                                            $100.95
I 12/2112004           BARNES & NOBLE.COM (MGM screen test DVD game)                                              $26.07
    I212 112004        SAMS INTERNET (2 DVDs, including "DodgeBall")                                              $48.61
    1212112004         SAMS INTERNET (wool peacoat)                                  i                            $60.54
    1212 112004        SAMS INTERNET (6 $100 gift cards)                                                          $604.15
    12/23/2004         SAMS l NTERNET ("Collateral" DVD)                                                         $26.27
    1/5/2005           AT&T WIRELESS SERVICES                                                                     $136.61
    1/5/2005           SAMS INTERNET (2 swivet barstools)                                  I
                                                                                                                  $293.29
    1/7/2005           SAMS INTERNET ("The Manchurian Candidate" DVD)                                            $24.95
    111812005          PUBL1X #541        SA1                                                                     $1 75.26
    111812005          UMCP BURSAR NET PO1 OF 01 ,                                   I                            $50.00
    111912005          AUXILIARY SERVICES (Georgia State University parking fee)                                  $200.00
    111912005          UMUC TUITION #6                                                                            $20.00
    1/21/2005          Pearson Educ*Website                                          L
                                                                                                                  $42.00
 .- 1/25/2005          GSU BOOKSTORE FOLLET #O57                                                                  $624.88
    1/28/2005       - AT&T WIRELESS SERVICES                             --          I                            $129.40--
    1/31/2005          PUBLIX #725 "      SA1                                                                     $230.41
   2/1/2005            SAMS INTERNET (10 $1 00 gift cards)                                         --             $1,004.1 1
   2/3/2005            OFFICE DEPOT # I 4                                                                         $500.00
                       PROGRESSIVE INS (car insurance for Darien ~ r e e n ' c 1 9 9 9Ford
  -2/8/2005
       ---             Mustang)              -----                            -                            - $1 , I 51.28-
-.-- 2/9/2005          NEXTEL    *WIRELESS   SVCS                       --          I                             $76.88 -
     2/9/2005        - NEXTEL "WIRELESS SVCS                   SSSS-

                                                                             -.---           .--- ----        -$402.14
                                                                                                                  ---
                                                                            \
     211 1/2005___     BEST BUY - 00005025            -                                                    -- --  $2,000.00
                                                                                                                     - -.
     2/22/2005         AT&T WIRELESS SERVICES -                                -------                            $69.83    A




     2/22/2005 -       WAL-MART STORES, IN_C_-{giftcarcls)                          i                  .--              -
                                                                                                                  $600.00 P




     2/24/2005      -WALMART(_girta2                                                                 -- $1 ,000.00
  --2/24/2005          WAL-MART STORES, INC (_gift   --cards)                           --.-...---..          ----.$- I ,500.00
     311I2005          SAMS INTERNET (15 $100 gift cards)                           ! -----                       $1,504.06
     4/14/2005         CINGULAR   -- 0769281100105                --                                          -$297.06
     411512005
  -------              CINGULAR WIRELESS   --- I-1-C          -                                                   $214.73
     4/25/2005         PUBI-IX #541       SA1                                       i                             $109.78
                                                                                                              ----..-
     5/3/2005-+
              ,-.,-    P.UBLIX.#725       SA1                                                                     $242.22
               .,'
                                                                                                                             A




  >/4/2605 *'        -$E~GIA-TEC~I-BKSTORE~~~~~O                                                                 $43.20
  @I"~!%&----'STU~~-~          --- ACCOUNTS 01 OF 01          - fJfffjj               (+&KT~          -       --.-$1,924.00
                                                                                                                    --
Date                Purchase Description                                                        Amount
511712005           ClNdULAR 0769281100105                                                     $80.58
5119/2005           ClNGClLAR WIRELESS LLC                                                     $144.66
5/26/2005           BARNES & NOBLE.COM                                                         $25.00
5/27/2005           BARNES & NOBLE.COM                                                         $69.05
61112005            AUXILIARY SERVICES                                                         $100.00
61112005            BARNES & NOBLE.COM                                                         $53.35
6/1/2005            PUBLIX #725     SA1                                                        $192.1 7
611612005           CINGULAR 0769281 100105                                                    $100.00
611712005           CINGULAR WIRELESS LLC                                                      $200.1 6
6/24/2005           PUBLIX #725     SAI                                                        $77.34
6/29/2005
-                   WAL-MART #I586 (personal items including cereal, shampoo, coke, etc.)      $94.03
                    PROGRESSIVE INS (car insurance for Darien Green's 1999 Ford
 6/30/2005          Mustang)                                                                   $1,298 .OO
 711412005          PUBLIX #541     SA1                                                        $65.35
 811812005          CINGULAR 0769281 100105                                                    $75.53
 811912005          CINGULAR WIRELESS LLC                                                      $157.76
 811912005          SOUTHEASTERIV LOUISIANA                                                    $70.00
 8/22/2005          BORDERS BOOKS 01001049 (3 personal books)                                  $37.39
 8/22/2005          STUDENT ACCOUNTS 01 OF 01                                                  $2,534.00
 812312005          AUXILIARY SERVICES                                                         $200.00      ,


 8/23/2005          PUBLIX #725      SA1                                                       $339.28
 8/30/2005          WALMART.COM INTERNET 0                                                     $314.98 '
 813 112005         GSU BOOKSTORE FOLLET #057 (personal textbooks and supplies)                $314.18
 9/2/2005           GSU BOOKSTORE FOLLET #057                                                  $105.59
 9/2/2005           PUBLIX #541     SA1                                                        $87.29
 9/6/2005           PUBLIX #725     SAl                                                        $140.32
 9/22/2005          CINGULAR 0769281100105 (payment for account of Betty Mclntyre)             $91.45
-9/26/2005          PUBLIX #541      SA1                                      -
                                                                                               $82.43


110/312005
 10/6/2005
 1011912005
                    PUBLIX#541       SAI
                    CINGULAR WIRELESS LLC
                    CINGULAR 0769281100105
                    CINGULAR 0787342700105
                            #541     SA1
                                                            -
                                                                         t
                                                                                               $82.84


1111--512005
-        -----      WAL MART (gift cards)      ,                                               $1,200.00
---11/16/2005
   ---..-           PUBI-IX #765    SA1                    ---- .--*.---




   12/2/2005
..-.-.-             CVS PI-IARMACY
                               ----- #4537 Q03                                                 $373.3'1
 -1 211 312005      CINGULAR 076928.i 1GO? 05                            ---------             $160.91 --
 1211912005         WAL-MART   .-..--@-
                            --#2360     $500 c&t .-cards)
                                                    ---.                  '       ---..,_---




                                                            -..
                                                   -
                                                   ,
                                                   ---
                                                     -




      ,,   4 ' )
                                       Page 7 of 16               '0002b5               b2b
                   ..-
    Date                     Purchase Description                                                    Amount
    1/6/2006                 CINGULAR 0787342700105 (cigular wireless bill)                         $1 10.24
    1/6/2006                 VZW WEB PAY VE (verizon wireless bill)                                 $254.15
    1/6/2006                 PUBLlX #765      SA1                                                   $98.50
    1/9/2006                 PUBLIX #765      SA1                                                   $375.00
    1/9/2006                 COMCAST VIDIO+PCI FEE                                                  $227.00
    1/9/2006                 PROGRESSIVE INS (insurance for Darien Green's 1999 Ford Mustang)       $1,298.00
    1/ I 012006              CVS PHARMACY #4537 Q03                                                 $424.79
    111012006                STUDENT ACCOUNTS 01 OF 01                                              $2,532.00
    1/ I 212006              PROGRESSIVE INS                                                        -$I II.OO
    1/I212006                PROGRESSIVE INS                                                        -$5.00
I   111712006                AUXILIARY SERVICES (Georgia State University parking fee)              $200.00
    111812006                GSU BOOKSTORE FOLLET #G57 (textbooks and supplies)                     $332.57
                             CINGULAR 0769281100105                                                 $78.86
                             THE UPS STORE #2236 (gift cards)                                    1 $2.860.65
                             STAPLES # I 005 (gift cards)                                        ( $1,495.15        '
  1/30/2006                  CINGULAR 0787342700105 (cigular wireless bill for Quennell Green)      $203.83
  2/8/2006                   VZW WEB PAY VE                                                         $252.13     ,


- 2/20/2006                  GSU BOOKSTORE FOLLET #057 (textbook)                  I                $54.50
  2/20/2006                  THE FRESH MARKETS S8S                                                  $52.70
  3/6/2006                   THE UPS STORE #2236 (gift cards)                                       $478.75
  3/7/2006                   CINGULAR 0769281100105 (cingular wireless bill)                        $81.84
  3/8/2006                   VZW WEB PAY VE                                                         $212.87
  311712006                  THINKWELL                                                              $209.75
  3/20/2006                  THE UPS STORE #2236 (gift cards and stamps)                            $972.80
  313 112006                 ITSPAYMYBILL8008206829                                                 $321.42
  4/3/2006                   CINGULAR 0254 (cingular wireless bill)                                 $31 5.64
  4/3/2006                                                  ---
                             CINGULAR 0769281100105 (cingular    wireless bill)                    -$74.77
  4/3/2006                   CVS PHARMACY #4537 Q03                                                 $489.44
  4/3/2006                   VZW WEB PAY VE                                                         $145.26
  411012006                  STAPLES #lo05                                                          $101.61
  4/20/2006 -                CINGULAR 0254                                                          $160.49
  4/24/2006                  -
                             BJS WHOLESALE #16IWOX                                                  $203.38
  4/24/2006                  PUBLIX #765      SAI



                                                                   --- --- --
                                                                              --------




                                                                                          -.--



           i..i   L ..i                           Page 8 of 1.6
           ..- _ .,.. ___.......... ...
                              ''
                                    A
                                        ,....I'
      Date
     61612006                        CINGULAR 0769281 100105                                                                                 $1 12.66
     61612006                        COMCAST VIDIO+PCI FEE                                                                                   $139.20
     61612006                        CVS PHARMACY #4537 Q03 '                                                                                $703.21
     611512006                       PUBLIX #765                    SA1                        -                                             $145.44
     611512006                       ECKERD DRUGS #2439                                                                                      $372.80
     611612006                       STUDENT ACCOUNTS 01 OF 01                                                                               $2,300.00
     611912006                       BJS WHOLESALE #I61 WOX                                                                                  $226.32 .
     611912006                       AUXILIARY SERVICES (Georgia State University parking fee)                                               $100.00
     611912006                       BKST GSU FOLLET #0570                                                                                   $1 18.74
1    6/26/2006            1          FOR GOODNESS CAKES (one 9" stawberry)                                                               1   $37.10       I
     6/28/2006                       REGAL CINEMAS                                                                                           $7.50
     613012006                       PROGRESSIVE INS (insurance for Darien Green's 1999 Ford Mustang)                                        $1,018.00
 , 6/30/2006                         THE FRESH MARKETS S8S (groceries)                 -
                                                                                                                                             $38.78
     613012006                       vzw WEB PAY VE                                                                                          $143.15
     711012006
     711712006                       CINGULAR 0769281100105                                                                                  $144.15
     711912006                       KROGER CO 210                    SL9                                                                    $211.90
     712012006                       THE FRESH MARKETS S8S (groceries)                                                                       $23.67
     712012006                       THE FRESH MARKETS S8S (groceries)                                                                       $26.00
( 7/31/2006                       ( CVS PHARMACY #4537 Q03                                                                               1   $321.26 (
     7/31/2006                       BARNES & NOBLE.COM (Barnes & Nobel membership renewal)                                                  $25.00
     81312006             1          BARNES & NOBLE.COM (personal books)                                                   .                 $155.71 .
                                                                                                                           !
     8/8/2006                        VZW WEB PAY VE (verizon wireless bill)                                                                  $143.03
     81912006                        STUDENT ACCOUNTS 01 OF 01 (personal tuition and fees)                                                   $100.00
     811112006                       CINGULAR 0769281 100105 (cingular wireless b~ll)                                                        $78.47
     811712006                       VUE GRAD MGMT TEST                                                                                      $250.00
     811812006                       CVS PHARMACY #4537 Q03                             -.                                                   $423 -80
     8/21/2006 -
)8/2812006               1           BARNES 81NOBLE.COM                                                                                  1$100,96         1
1    8/29/2006            1          PUBLIX #765                    SA1                                                                  1 $155.80 (
                                     GEORGIA BOOKSTORE #46 (personal books)                                                                   $330.69
                                     CVS PHARMACY #4537 Q03                                                                                   $312.35
-    91512006                        AUXILIARY             SERVICES (Georgia State University parking fee)                                    $200.00
---- 9/5/2006                        GEORGIA             BOOKSTORE        #46 (returned a personal book)                                      431.05 -
     9/6/2006                       VZW WEB PAY VE (verizon wireless         --          kill)                           ---                  $168.01 -.
     911 112006                      BJS WHOLESALE #I61 WOX                                                                        .-.        $563.78
-----911112006                       COMCAST CABLE COMM (comcast service)                                                     ----            $137.87
------
     9/12/2006                       PUBLIX #875           --- SA1 -.---.--.------.                     -------------.-                       $125.78
     911
 --.-..  3/2006
              -.----.             . CINGULAR     -.        0769281100105 {cingular wireless bill) ,.._                                        $78.47
------
     911512006 -..--- THE FRESH MARKETS                         --.      S8Shroceries)
                                                                                   -.-- -----.-         ---.---..------.-                     $54.1 5
     91 1812006
-------------                       AMZ      Amazon           Payments  (sony    VAIO   laptop   computer)                                    $1,712.41-
 --  9/19/2006 -                    AMZ Amazon Payments (HP Pavilion laptop)                         --                                      ---$824.98
    9/26/2006
------                              CVSPHARMACY #4!j37 Q03                                                              -----                 $ I 60.90"--.
    9/29/2006                       VUE GRAD MGMT TEST                                                                                       $50.00
                         -
t  .1014/2006
     1011012006
                   ,.I
                        ',  < :,.!
                         !A,-.
                          :
                       ...-
                                    ETS GRE C8T REGISTRATI -----
                                    ~zw%@~$?~Y
                                           8.   "   '* i ....
                                                        ..
                                                               VE (vcrizon wireless bill)
                                                                                                   UtdU'  p !(          pb,dE
                                                /
           C: .,!
                             ,.{, ,.. .! - . .. .. ..,.
                   iJ I,.,!            1             ; .a4. .
                                              1-1 >..=.
                                                                                           00'02b5                       b2E
               .        ..
                      _._.____I^-...-
                                        ....                         Page 9 of 16
!   Date
    1011112006
                   Purchase Description
                   CINGULAR 0769281100105 (cingular wireless bill)                         $98.07
    1011212006     BJS WHOLESALE #I61 WOX                                                  $232.80
    1I1612006      VZW WEB PAY VE (verizon wireless bill)                                  $147.46
    1111412006     ClNGLlLAR 0769281 100105 (cingular wireless bill)                       $89.71
     211I2006      BJS WHOLESALE #I61 WOX                                                  $1,438.94
    1211I2006      CINGULAR 0254                                                           $620.58
    1211I2006      CVS PHARMACY #4537 Q03                                                  $320.45
    12/1/2006      CVS PHARMACY #4537 Q03 (personal items including - medication)          $83.71
    12/4/2006      CVS PHARMACY #4537 Q03                                                  $531.75     ,
    12/4/2006      BORDERS BOOKS 01001049 (personal books)                                 $72.28
    12/4/2006      WALGREEN     00071670                                               1   $414.87
    1211312006     CINGULAR 0769281100105 (cingular wireless bill)         ----+-.         $87.1 1
    1211312006     VZW WEB PAY VE (verizon wireless bill)                                  $141.96
    1211512006 .   PUBLlX #765     SAI                                                     $38.91
                                                                                           $49.93
    1I512007      Amazon.com (SIG epson stylus photo inkjet printer)                       $408.40
    1I512007      AMZ Amazon Payments (accessory kit for digital camera)                   $415.92
    11512007      AMZ Amazon Payments (epson photo black ink cartridge)                    $36.24
    1I512007      BJ'S.COM #0549 WOX                                                       $1,275.46
    1I512007      PROGRESSIVE INS (insurance for Darien Green's 1999 Ford Mustang)         $1,018.00
    1I512007      BARNES & NOBLE.COM                                                       $38.51
    1I812007      AMZ Amazon Payments (inkjet cartridge for stylus photo printer)          $22.78
    1I812007      ETS GRE CBT REGlSTRATl (GRE exam fee)                                    $130.00
    111112007     VZW WEB PAY VE (verizon wireless bill)                                   $146.96
    111112007     CINGULAR 0769281100105                                                   $103.02
                  COMCAST CABLE COMM (comcast service)                  -.---
                  Pearson Educ Website                           .----
    I12212007     cvs PHARMACY #4537 ~ 0 (gift3 Cik~)                                      $240.85
    1I2212007     GEORGIA BOOKSTORE #-4l(ersonal books)
    1/26/2007   - GEORGIA BOOKSTORE #46 (ret~~rned     personal books)
    1I2912007     CVS PHARMACYxt537 Q03
    1I2912007     T MOBILE NO 7648              -                                 --




                   VUE GRAD MGML TEST (GMAT
                            0769281100105
 Date                 Purchase Description                                                                                       Amouni
 411912007            ETS GRE CBT REGlSTRATl                                                                                     $130.00
 411912007            ETS GRE CBT REGlSTRATl                                                                                     $130.00
 411912007            GA STATE LINIVERSITY                                                                                       $195.00
 5/4/2007             HORN OF PLENTY HOSPITA (wedding reception catering)                                                        $4,328.68

On and between September 6, 2 0 0 5 , and February 1 2 , 2 0 0 7 ,
the accused manipulated and altered the receipts for
purchases, each alteration being a separate act in
furtherance of her endeavor:


   Date             Purchase Description
       9/6/2005     PUBLIX #725      SA1                                                                                         $140.32
      9/26/2005     PUBLlX #541      SAl                                                                                         $82.43
      10/3/2005     PLIBLIX #541     SA1                                                                                         $75.44
      11/7/2005   1 PUBLlX #541 SAI                                                                                             1$33.07       1
     1111512005     WAL MART (gift cards)                                                                                        $1,200.00
     11/16/2005     PUBLlX #765      SA1                                                                                         $400.00      -



     I111812005     WAL MART (gift cards)                                                                                        $1,200.00
     11/28/2005     JB IMPORT                                                                                                    $267.23
     1112912005     TARGET       00020362                                                                                        $900.00
     1211912005     WAL-MART #2360 (3 $500 gift cards)                                                                           $1,500.00
     12/23/2005     THE UPS STORE #2236                                                                                          $1,059.50
 -- 1/6/2006        CVS PHARMACY #4537 Q03                -                                                                      $560.31
       1/6/2006     THE UPS STORE #2557                         -----                                                            $847.60
       1/9/2006     PUBLIX #765      SA1                      --                                                                 $375.00
      '1/18/2006 --GSU BOOKSTORE FOLLET #O57 (textbooks  -----and supplies) -.---                                                $332.57
     1/23/2006      THE UPS STORE #2236 (gift cards)       --                                                                    $2,860.65
-1/30/2006          STAPLES #I005 (gift cards)                            -                                                      $1,495.1 5
---- 3/6/2006       THE UPS STORE #2236 (gift cards)                                                                        ,
                                                                                                                                 $478.75
     312012006      THE UPS STORE #2236 (gift cards and stamps)                                                                  $972.80

     5/2/2006          C_VS PI-IARMACY-  -
                                      #4537 Q03
                       CVS PHARMACY #4537 Q03                                             .---
                       BORDERS BOOKS 01002567---------.--.---
-----
     6/6/2006          IKEA ATLANTA                                                                  -          -
                                                                                                                                 $145.44
                       BJS WHOLESALE
                              --     $161
                                     -------..---WOX                                                 --                          $226.32




k--k
        7/31/2006
----.---..--          CVS 13tIARMACY----.--..*----."------------."------
                                      #4537 Q03                                                                                  $32 1.26
        /           / CVS PHARMACY"---#4537 Q03                                                  .   -.         -- -   --   A




        8/29/2006     PUBLIX #765      SA1
                                      ,---                                             .---               ---                    $155.80
                         W l - A L E #I        61 WSX                A----.---.-----
     r

         Date           Purchase Description                                                          Amount
           10/12/2006   BJS WHOLESALE #A61 WOX                                                       $232.80
            12/1/2006   BJS WHOLESALE #A61 WOX                                                       $1,438.94
            12/1/2006   CINGULAR 0254                                                                $620.58
            12/1/2006   CVS PHARMACY #4537 Q03                                                       $320.45
            12/4!2006   CVS PHARMACY #4537 Q03                                                       $53 1.75
           211212007    BJS WHOLESALE #161 WOX                                                       $606.57


     On and between June 6, 2 0 0 3 , and February 1 2 , 2 0 0 7 , the
     accused manipulated the accounting computer data to spread
     her illicit purchases among the following accounts as
     follows :



     Date         Purchase Description                                    Amount            Account
                  UMCP BURSAR NET PO1 OF 01 (tuition & other
     6/6/2003     expenses for Darien Green)                       (      $2,400.00          GTF
                  UMCP BURSAR NET PO1 OF 01 (tuition & other
     611 112003 expenses for Darien Green)                                $'l,600.00         GTF
     1/6/2004     SAMS         WAX                                        $1,600.00          GTF
     1/6/2004     SAMS         WAX               -.-                      $2,000.00          GTF
     1/6/2004.    SAMS         WAX                               _]       $800.00            GTF
     111312004    SAMS         WAX                                        $1,800.00          GTF

(
     2/3/2004 - SAMS
     4/27/2004    PUBLIX #725
                               WAX
                                    SA1
                                                                          $1,250.00
                                                                          $106.53      1     GTF
                                                                                             (33;      1
     8/5/2004     PUBI-IX #725
     811112004 1 SAMS          WAX
                                    SAl

                I AMERICAN TRANSMISSION INC (transmission work on
                                                                      1   $252.64
                                                                          $2,000.00    I     GTF        1
                  1994 Nissan Altima)        -.-
                  PUBLIX #725       SA1
     9/2/2004     AT&T WIRELESS SERVICES
     10/8/2004    PUBLIX #725       SA1
    ---                                                                                      GTF

     1211412004 cand
    11/5/2005 - ] ~ L ~ 8 E R V I -- C ~ S s -
                                                              -   ,   p3.33
                                                                       $136.61
                                                                                       1
                                                                                       -"   ------
                                                                                               GTF
                                                                                             GTF -
                                                                                                       I
                                           --
                 SAMS INTERNET (2 swivel barstools)-
     1 8/200s_- PURLlX#541    SA'I           A              ---
                                -"   -----   "-..-                                           GTF --""--
                         #725        SA'I
 Date            Purchase Description                                      Amount            Account

 411412005      CINGULAR 0769281 100105                                 $297.06               GTF
 411512005      CINGULAR WIRELESS LLC                                   $214.73               GTF
 4/25/2005       PUBI-IX #541     SA1                                   $109.78               GTF
 5/3/2005        PUBLIX #725      SA1                                   $242.22               GTF
 6/1/2005        PUBLIX #725      SA1                                   $192.17               GTF
 611612005      CINGULAR 0769281 100105                                 $100.00               GTF
 611712005     ClNGLlLAR W IRELESS LLC                                  $200.16               GTF
 6/24/2005      PUBLIX #725       SA1                                   $77.34                GTF
               WAL-MART # I 586 (personal items including cereal,
 6/29/2005      shampoo, coke, m~lk,etc.)         .                      $94.03               GTF
 7/14/2005      PUBLIX #541       SA1                                    $65.35               GTF
 8/18/2005      CINGULAR 0769281 100105                                  $75.53               GTF-
 8/19/2005      CINGULAR WIRELESS LLC                                    $157.76              GTF
 811912005      SOUTHEASTERN LOUISIANA                                   $70.00
 8/22/2005      BORDERS BOOKS 01001049 (3 personal books)                $37.39
 8/23/2005      PUBI-IX #725      SA1                                  1 $339.28              GTF
 8/30/2005 WALMART.COM INTERNET 0                                ,     $314.98                GTF
 9/2/2005       PUBLIX #541       SA1                                    $87.29               GTF
 9/26/2005      PUBLIX #541       SA1                                    $82.43               GTF
 10/31/2005 ClNGULAR0787342700105                                        $107.75              GTF
 11/7/2005 PUBLIX #541            SA1                                    $33.07               GTF
 1111612005 PUBLIX #765           SA1                                    $400.00     .-       GTF
 11/22/2005 CINGULAR 0787342700105                                       $109.42              GTF
 11/28/2005 JB IMPORT                                                    $267.23              GTF
 11/29/2005
--          -----TARGET       00020362                                   $900.00              GTF
      -
 1211912005    CVS PHARMACY #4537 Q03                -.-----           -.-.$147.75    ---.    GTF
 1/6/2006 - PUBLlX#765            SA1                                  $98.50                 GTF
 1/9/2006       PUBI-IX #765      SA1     -.-                          $375.00                GTF
 111012006     CVS PHARMACY #4537 Q03                                  -
                                                                       $424.79                GTF
               CINGULAR 0787342700105 (cigular wireless bill for




*---
4/24/2006
4/24/2006
4/24/2005!-.-



                -
                 BJS WHOLESALE #I61 WOX
                     - #765
                 PUBL-IX

                 PUBLlX !#I53 SA1
                                 SAl
                 THE IzIIESH MARKETS
                                ----.  S8S
                                        .----

                 CVS PI-IARMACY H4537 Q03
                     PHARMACY    ##4537
                -- PHARMACY #4537 Q03
                                         -
                                                             --
                                                                  --


                                                                       I
                                                                        $300.25
                                                                    $178.26
                                                                    $23.60
                                                                  --..-....---
                                                              -- - $41.15            {--
                                                                                               GTF
                                                                                               GTF
                                                                                               GTF     -1
                                                    -----
1 Date            1 Purchase Description                            lAmount            1    Account      1
1 6/6/2006          CVS PHARMACY #4537 Q03                             $703.21                G'rF
    611512006       PLIBLIX #765   SAI                                 $1 45.44               GTF
    611512006       ECKERD DRUGS #2439                                 $372.80                GTF
    611912006       BJS WHOLESALE #I61 WOX                             $226.32                GTF
    6/26/2006       FOR GOODNESS CAKES (one 9" stawberry)              $37.10                 GTF
    6/28/2006       REGAL CINEMAS                                      $7.50                  GTF
    613012006       THE FRESH MARKETS S8S (groceries)                  $38.78                 GTF
    711012006       CVS PHARMACY #4537 Q03                             $64.49                 GTF
    711912006       KROGER CO 21 0    SL9                              $211.90                GTF
    712012006       THE FRESH MARKETS S8S (groceries)                  $26.00                 GTF
    712012006       THE FRESH MARKETS S8S (groceries)                  $23.67                 GTF
    7/31/2006       CVS PHARMACY #4537 Q03                             $321.26                GTF
                    BARNES & NOBLE.COM (Barnes & Nobel membership
    7/31/2006       renewal)                                           $25.00                 GTF
    811 112006      CINGLILAR 0769281100105 (cingular wireless bill)   $78.47                 GTF
    811812006       CVS PHARMACY #4537 Q03                             $423.80                GTF
    812112006       CVS PHARMACY #4537 Q03                             $219.89                GTF
    8/29/2006       PUBLIX #765    SA1                                 $155.80                GTF
    91112006        CVS PHARMACY #537 Q03                               $312.35               GTF
    911 112006      BJS WHOLESALE # I 61 WOX                           $563.78                GTF
    911212006       PUBLIX #875    SA1                                 $125.78                GTF
    911512006       THE FRESH MARKETS S8S (groceries)                  $54.15                 GTF
    9/26/2006       CVS PHARMACY M537 Q03                              $160.90                GTF
    1011112006      CINGULAR 0769281100105 (cingular wireless bill)    $98.07                 GTF       -
                  1
(   1011212006      BJS WHOLESALE #I61 WOX
                    CVS PI-IARMACY #4537_Q03
                    CVS PHARIWACY #4537 Q03 (personal items including
                                                                      1
                                                                      I$232.80
                                                                        $320.45        11     GTF
                                                                                              GTF        I1
t   121112006
    7211512006   -I
                  --medication)
                    PUBLIX #765    SA1
                                                                       $146.96
                                          (GMAT exam fee) ,,



                                                               -
    411 912007    1. ETS
                     -----.GRE
                           -.  c13-r
                                 - REGISTRATI.                       _1.g130.00- - -   I      GTF        1

                                                                          $4,320.68

                                                                      .--.-
                                                                                             Ka~iffman
                                                                          $606.57           Foundation

                                                                      -
                                                                      --
                                                                       .-
                                                                        .a
                                                                         -



                                                                                            Kauffrnan
I Date          / Purchase Description                                       Amount                    Account

    6/1/2005    1 AUXILIARY SERVICES                                     (   $100.00             1      NSF-98
                I   PROGRESSIVE INS (car insurance for Darien Green's    1                       1
                                                     '
    8/22/2005       STUDENT ACCOUNTS 01 OF 01                                $2,534.00                  NSF-98
    8/23/2005       AUXILIARY SERVICES                                       $200.00                    NSF-98            f




                    GSU BOOKSTORE FOLLET #057 (oersonal textbooks
  8/31/2005         and supplies)
  9/6/2005          PUBLIX #725   SA1                       .-
  1/9/2006          COMCAST VIDIO+PCI FEE
)0/2006         1   STUDENT ACCOUNTS 01 OF 01 --                         1 $2,532.00 1                  NSF-98        I
    1/12/2006       PROGRESSIVE INS                                          45.00                      NSF-98
                    AUXILIARY SERVICES (Georgia State University
  111712006         parking fee)                                             $200.00                    NSF-98
  1/30/2006         STAPLES #I   005 (gift cards)                            $1,495.1 5                 NSF-98
  212012006         GSU BOOKSTORE FOLLET #057 (textbook)                     $54.50                     NSF-98
  3/8/2006          VZW WEB PAY VE                                           $212.87                    NSF-98
  3/31/2006         ITSPAYMYBILL8008206829                                   $321.42                    NSF-98
  4/3/2006          CINGULAR 0254 (cingular wireless bill)                   $315.64                    NSF-98
  4/3/2006         VZW WEB PAY VE                                            $145.26                    NSF-98
  411012006         STAPLES # I 005                                          $101.61                    NSF-98
1 5/1/2006         VUE GRAD MGMT TEST (GMAT exam fee)                        $250.00                    NSF-98
  5/4/2006          STUDENT ACCOUNTS 01 OF _01                               $2,595.00                  NSF-98
  6/16/2006         STUDENT ACCOUNTS 01 OF 01                                $2,300.00                  NSF-98
  6/19/2006         BKST GSU FOLLET #0570                                    $1 18.74                   NSF-98
                    PROGRESSIVE INS (car insurance for Darien Green's
    6/30/2006   ,-- 1999 Ford Mustang)---                                    $1,0;18.00                 NSF-98
1   6/30/2006
                               -
                1 VZW vr-- ^ " "'                                        I   h .   1-   .-       I
                                                                                                 4-.

                                                                                                        NSF-98        I

                     fees)
                     VUE GRAD MGMT TEST
                                                    -                      $100.00
                                                                           $- - 00
                                                                                        -4 --
                                                                                        .               NSF-98-A
                                                                                                     - .----.NSF-98
-I 8/28/2006 1                                                                             1     (
                    -BARNES
                       - . . - &- NOBL.E.COM                             1-K"100.96

                                                                                                 1
                                  - - - . - - - - -                                                     NSF-98
                     GEORGIA H001<Sl'ORE 1f46 (personal books)             $330.69           ,
                                                                                                        NSF-98
                     AUXILIARY SERVICES (Georgia State University
                                                                        ]$200.00
                                                                          d 9 -              F   s N
                    GEORGIA BOOKSTORE # 4 6 (returned a ~ersonal



    911312006                                                            1
                                                                  . -- ------
                    CINGULAR. 0769281 100105 (cingular wireless bill)    $78.47.         NSF-98i
                                         (sony VAlO laptop computer) --. $1,712.41 . --- NSF-98
                                         (I-IP Pavilion laptopI          $824.98         NSF-98
                                                                                                 1     7-.-




                       L....          ---.----'
                                          Page 1 5 of 16
Date        Purchase Description                                    Amount       Account     ;




111612006  VZW WEB PAY VE (verizon wireless bill)               $147.46           WSF-98
11/14/2006 CINGULAR   0769281100105 (cingular wireless bill)    $89.71            NSF-98
           PROGRESSIVE INS (car insurance for Darien Green'?
1/5/2007   1999 Ford Mustang)                                   $1,018.00         NSF-98
1/8/2007   ETS GRE CBT REGISTRA-I7 (GRE exam fee)               $130.00           NSF-98
111212007  COMCAST CABLE COMM (corncast service)                $131.05           NSF-98
111912007  Pearson Educ Website                                 $49.95            NSF-98
                                                                $161.81           NSF-98
            EBOOKS.COM (personal book)                          $12.99            NSF-98
            CINGULAR 0769281100105 (cingular wireless payment
211212007   for Betty Mclntyre)                                 s1!!!kt?   .--.- ------
                                                                                    NSF-98
211212007   VZVV WEB PAY VE                                     $141-96           NSF-98
            PROGRESSIVE INS (car insurance for Darien Green's
1/9/2006    1999 Ford Mustang)                                  $1,298.00         NSF-99

O n or about March 26, 2007, the accused submitted a
fraudulent invoice for an internet purchase from
electronics.ca publications for reimbursement from Georgia
Tech in the amount of $4,865.00.

                             Part 3     --   Property

The accused endeavored to acquire and maintain
approximately $173,186.46in personal property.




                                                    BOOK U \\   .   PjlbGE
                                                0002b5               b35
                                   Page- 16 of 26
FXNAL D m m O N           nRevoked'1 d     h&r ,!$~tegcc 0 Amended Sentence           L   Adifled Sentence DReSentmc5~
                                                                               rnALDrnfTPON
W THE SVPERIQR COURT OF 1FUL'PY)N ~           ~    I   ?   l                   t,XalmNAI, ACTION NO.D!!~=---&L




                                                                       a VERDICT                       o O"~XERDISWITION
                                                                              0N O N r n Y
       LTY ON COUNT                                                     ON COUNT~S)                     npro~wa
                                                                                                              PIROSEQUIORDER
 Ll NOU) WmEM)EHEON COUNT(S)                                                                              m T ( S )
 C! TO LESSER JNCLUDFD OFFENSE@                                u NOT txmm ON COUNT(S)                   C1 DEAD IXXXET ORDER ON
                                                               D GUILTY O F XNCLKOED OFFENSES             COuws)
 ON COUNT(S)
                                                               ON COUNT(s)
                                                                                                         (SEN SEPARATE ORDER)     -
-31             ADVISaD OF lD@fiER LUGRTm NAVE SENTENCE REVIEWED BY THE SUPERIOR COURT'S SIGVWNCE WaVXEW PANEL
                                       B
                                      LOW SENTENCE                              n MISDIEMEANORS E ~ C E :
 WEEWEAS, the above named defendant has been found guihy
                                                       -    - of the above slated o&nse. wlfZEmUIPON,it is oxtied and
 adjudged by the Court that:
 The said defendant is hereby sentenced to codinemem for a period o f   CZO)          Ta-~r                       y-L
 o cmGt for t h e sewed                                        .  o StaaOmwd per p n d t y ed-b
 In the SOate Penal System or such other institution as the Commissioner of the §tats: Department of Copzectim or Court anay dim$ to
 be c o l n p as~ pfwided by law.
 ]BfOmW'E$    it is farather a&rdby     Corn:
 0 I) 'X'IUiT    above sentence mav ke sewed on ~mbathn.




  The W n W , baviug h e n g t a U the privilege of saving all or lpart of Qe above stated sexttence on pmbation, hereby is s~ntmced
  to Phe following general con&tiolnsofiprobafion:
       1. Do not violate 1   k criminal laws of any gwemmtal unit.
       2. Avoid use of alcohol md omtics a d other b g m u s dnop unless bdblly pmcdW - md avoid pemns or pllaces of
            ckepuhblc or tbirrrnffll cbracta.
       3. Repost to tbe Probation OfEcer asdirected and & not change your addreis, move outside FuIbn Cozudy, or leave tbe state
            without pior p e ~ a d i o nof the Probation GE~cer.fWroba0.d%n&nce M y )
       4. MahW e ~ ~ @ o p.t          l ~sappart
                                            t     your legal depcndmts.. mmit to evaluapims ad testing and complete any gmgram as
            directed by the &ol>&cbm    Oflicer.
       5. Submit to a search d y m r pason, xx&mcc, pqx~s          a d o r eflkts, aaythe d&e&ay or night, witb or withut it ScarcSl
            w m t , whenever rcq-ueskd to do so by a Probation CPfficer orauy law e ~ o m m e ofTkr
                                                                                                  1     upon reasomble came Po believe
            that you arc in violation of t k hw. You fhrthex qecScalay mmeat to the use of anything seized as a ram31 of a wakh as
            evidence in judicial p r ~ i o g s .
       6. Upon oral or written ~.r~qilvzst  by anry ]ProbationOfficer,produce a bmtb, urine, mdor b l d specimen br analysis fas h e
            possible ps-esem d a s u b s t m a ph'bited or co-ed        by my b w of the Stae of Gwrgia or d the United S&ata.
            fPr&atod §emnce Only)
                                                                                                                       Revid m 4
                                                                      . Plus dl applicable fees as set by law. Plus $50.00
IPPAF (O   fee waived). Plus pay $92 3
IT LS FURTHER O~ERIEIPthat the de ndallt pay a BXNE of $
                                       for ProbatiodMisdemeanorProbation Fee.

R E S m T l t O N to the victim in the amount
                                           - .of- $

RESllTUTiON to the Court Administrator for ATTORBEY FEES in the amount of $                                             ,

OTHER f
                           /
                        ~ J P E C WCONDHYXONS OF PBc(BBATI0N'/SUSPENSPQN(0.C.G.A 42-8-34.1)
                                                                                                                                           1



  Stay away from victim
                            yards from victim
PDruglAlcohol
  G A A..~sumea~mmst
              Houm oi Community Service
                          complete any treatment mquiirred by the probation department
  Must succevsfuMy complete htensivc:Probation Program
o Must successfully complcte Drug Court Program
o Obtah GED




IT I$ THE BURTHEIR ORDER of the Court, and the defendant is hereby advised that the Court may, at any b             e , revoke any
conditions of this probation/st~spei~sion andlor disclmrge the defendant fbm probatio~dsuspension.The defendant shall be subject to
arrest fir violation of any general coldition of probation, special cocldition of probation or suspension herein granted.If such
probatiodsuspcnsio~~    is revoked, the Caurt may revoke a portion of the sentence which was originally imposed in the manner providd
by law &er deducting there liorn the am0111atof time tlhe defendant has served on ]probation/sospensiot~.K a special condition of
probation is violated, the Qurt may revoke the er1,tke bdance of the prrobatd sentence.

The defendant was rcaresentecl by-                                                                                    Attornev at Law
                                                                                                               (Employment)(Appointed)

So ordered this    \A9 day of                    2 0 B q
       Keoorler:           --
IUs is to certify tl1zst n true & coxxmt copy of this sent en^ of Probation bas k c r ~dcHvercd in ~CEOII to ill: clcfen&mt & helshc has
becn hlstructcdregarding lfac abovc conditions.
                   IN THE SUPBRIOR COURT OF FULTON
                            ,




                                 STATE OF GEORGIA

STATE OF GEORGIA
             I     vs .                  )    CASE NO. 08SC66500
                                         1
MICHELLE HARRIS,
A/K/A MICHELLE DUNBAR,

        Defendant.

                          CONSENT ORDER AS TO RESTXTUTION

        The defendant entered a plea of guilty to one count of

racketeering on March 16, 2009, and thie Court eentenced

Defendant to 20 years, 10 to be served in prison and the

remainder on probation.             The Court left t h e issue of
restitution to be determined at a later date.               The State
and the Defendant, in an attempt to resolve and s e t t l e the
iesue of restitution without the need for a hearing, hereby

consent and agree to t h e following;

        1.       The indictment alleges a total theft amount of


                                    L



        2.       Defendant agrees to pay $125,000.00 in

restitution.
        3,       Defendant waivea the following rights: ( a ) t h e

right to offer a restitution plan; (b) the right to a
hearing for the Court to determine t h e amount of
restitution; (c) the right to require t h e C o u r t to consider
t h e factors set out in O.C.G.A.     517-24-10 in determining-

restitution; (d) the right requiring the C o u r t to make

w r i t t e n findings of fact as to the factors set out in

0,C.Q.A. 517-14-10; and (e) the right to appeal the amount

of reatitution or any o t h e r terns of this order concerning

restitution.



      SO ORDERED, t h i e                         ,   2009.




                                    FU-   County Superior C o u r t




Prepared by:




ASslstant Attoxney G e n e r a l
4 0 Capitol Square, SW
Atlanta, Georgia 30334
 (404) 6 5 6 - 5 9 5 9
    Consented to by:                   I




    Assistant Attorney General
    4.0 Capitol Square, SW
    Atlanta, Georgia 30334
    (404) 656-5959




c
    ~t torney for-Michelle Harris
    2 7 8 N o r C h Marietta Pkwy.
    M a r i e t t a , Georgia 30060:
    (678) 344-4644
